No. 20-410
IN THE SUPREME COURT OF THE UNITED STATES
_________________
NTCH, INC., PETITIONER
v.
FEDERAL COMMUNICATIONS COMMISSION, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENTS IN OPPOSITION, via email and firstclass mail, postage prepaid, this 30th day of November, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,793
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
November 30, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 30, 2020

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0410
NTCH, INC.
FCC, ET AL.
DONALD J. EVANS
FLETCHER, HEALD & HILDRETH, PLC
1300 NORTH 17TH STREET
11TH FLOOR
ARLINGTON, VA 22209
703-812-0400
EVANS@FHHLAW.COM
JENNIFER BETH TATEL
WILKINSON BARKER KNAUER LLP
1800 M STREET, NW
SUITE 800N
WASHINGTON, DC 20036
202-383-3344
JTATEL@WBKLAW.COM

